                          Closeout for MOO020007

   In February 2000, we received an allegation' that the PI2 of a n Small ,
Business Innovative Research (SBIR) proposaP may have committed
plagiarism. It was also alleged the research the PI had proposed was completed
before NSF made the award. We do not believe the allegation of plagiarism is
sustainable because the PI acknowledged the author4 as having contributed to
the project. Although it is still possible that administrative action may be
taken, such a s suspension of the PI'S current SBIR Phase I1 award,5
debarment, or a finding of misconduct in science, this investigation is
converted to an I-case because of the presence of possible criminal/civil
violations.




                                 Page 1 of 1                          MOO-07
